Nos. 19-715 and 19-760
IN THE SUPREME COURT OF THE UNITED STATES
DONALD J. TRUMP, et al.,
– v. –
MAZARS USA, LLP, et al.,
——————————
DONALD J. TRUMP, et al.,
– v. –
DEUTSCHE BANK AG, et al.,

Petitioners,
Respondents.
Petitioners,
Respondents.

PROOF OF SERVICE
I, Nikolina Gurfinkel, do swear that on this date, February 10, 2020, as required
by Supreme Court Rule 29, I have served the enclosed BRIEF OF AMICUS CURIAE
PROFESSOR VICTOR WILLIAMS IN SUPPORT OF PETITIONERS (ADDRESSING
UNCONSTITUTIONAL ATTAINDER AGAINST PRESIDENT DONALD J. TRUMP, ET AL.)
(AMENDED) on each party to the above proceeding or that party’s counsel, and on every
other person required to be served, by giving three true copies of same, addressed to
each individual respectively, and enclosed in a properly addressed wrapper, to
Federal Express for Overnight Delivery, postage prepaid.
The names and addresses of those served are as follows:
WILLIAM SPENCER CONSOVOY
Counsel of Record
CONSOVOY MCCARTHY PLLC
1600 Wilson Boulevard, Suite 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com
Attorneys for Petitioners Donald J. Trump, et al.
JERRY D. BERNSTEIN
Counsel of Record
BLANK ROME LLP
1271 Avenue of the Americas
New York, NY 10020
(212) 885-5511
jbernstein@blankrome.com

Attorneys for Respondent Mazars USA, LLP
DOUGLAS NEAL LETTER
Counsel of Record
OFFICE OF GENERAL COUNSEL,
U.S. HOUSE OF REPRESENTATIVES
219 Cannon House Office Building
Washington, DC 20515
(202) 225-9700
douglas.letter@mail.house.gov
Attorneys for Respondent Committee
on Oversight and Reform of the U.S. House
of Representatives
PRATIK ARVIND SHAH
Counsel of Record
AKIN GUMP STRAUSS HAUER & FELD, LLP
2001 K Street N.W.
Washington, DC 20006
(202) 887-4210
pshah@akingump.com
Attorneys for Respondent Deutsche Bank AG
That on the same date as above, I sent to this Court forty copies of the within
BRIEF OF AMICUS CURIAE PROFESSOR VICTOR WILLIAMS IN SUPPORT OF PETITIONERS
(ADDRESSING UNCONSTITUTIONAL ATTAINDER AGAINST PRESIDENT DONALD J. TRUMP,
ET AL.) (AMENDED) via Federal Express Overnight Delivery, postage prepaid.
All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Sworn to before me on this
10th day of February, 2020.

s/Nikolina Gurfinkel
Nikolina Gurfinkel
ORIGINAL

37344

